<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-278]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-278

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 1, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-934 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------      
      
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JULY 1, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                              LEGISLATION

Nomination Reference and Report:
    PN 1716, Katherine A. Crytzer, of Tennessee, to be Inspector 
      General of the Tennessee Valley Authority..................     9
    PN 1609, Beth Harwell, of Tennessee, to be a Member of the 
      Board of Directors of the Tennessee Valley Authority.......    10
    PN 1610, Brian Noland, of Tennessee, to be a Member of the 
      Board of Directors of the Tennessee Valley Authority.......    11
General Services Administration Resolutions......................    12

                          ADDITIONAL MATERIAL

Letter to Senator Cardin from Jeffrey A. Post, Associate 
  Administrator, General Services Administration, June 18, 2020..    53

 
                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JULY 1, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:48 a.m. in room 
106, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Boozman, Wicker, Shelby, Ernst, and 
Whitehouse.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today, we are going to consider three nominations and 27 
General Services Administration resolutions. Senator Carper and 
I have agreed that we will begin voting at 9:55, and at that 
time, we will call up the items on the agenda. We will not 
debate the items on the agenda while we are voting; instead, we 
will debate these items before we vote.
    I am also happy to recognize any members who will wish to 
speak after the voting concludes.
    The three nominations we will consider are: Katherine 
Crytzer to be Inspector General of the Tennessee Valley 
Authority; Beth Harwell and Brian Noland to be Members of the 
Board of Directors of the Tennessee Valley Authority.
    I had also planned to consider the nomination of Douglas 
Benevento to be the Deputy Administrator of the Environmental 
Protection Agency. Mr. Benevento is well qualified and would 
have made a good Deputy Administrator.
    On Friday, Senator Ernst expressed her opposition to moving 
this confirmation forward. While I strongly disagree with 
Senator Ernst on the Renewable Fuel Standard, her longstanding 
position on the side of Iowa corn farmers will not be overcome 
in this case. This Committee will therefore not be taking up 
Mr. Benevento's nomination.
    Turning to the Tennessee Valley Authority nominations, the 
Subcommittee on Clean Air and Nuclear Safety held a hearing on 
the nominees in May. I would like to thank the Chairman of 
Subcommittee, Senator Braun, for holding his hearing and 
assisting the full Committee in considering these nominations.
    President Trump nominated Ms. Katherine Crytzer to serve as 
the Inspector General of the Tennessee Valley Authority. She 
currently serves as the Acting Deputy Assistant Attorney 
General in the Office of Legal Policy at the U.S. Department of 
Justice. She previously served as an Assistant U.S. Attorney, 
where she led teams of agents, investigators, and auditors in 
fraud investigations and prosecutions. Ms. Crytzer received the 
Attorney General's award for distinguished service in 2019.
    President Trump has also nominated Beth Harwell and Brian 
Noland to serve as Members of the Board of Directors of the 
Tennessee Valley Authority. Dr. Harwell is a Visiting Professor 
at Middle Tennessee State University. She was the first ever 
female speaker of the house of representatives for the State of 
Tennessee.
    Mr. Noland is President of East Tennessee State University. 
He previously served as chancellor of the West Virginia Higher 
Education Policy Commission, responsible for developing and 
implementing the public policy agenda for higher education in 
West Virginia.
    Each of the three nominees is well qualified and will bring 
a wealth of experience and expertise to the position that they 
have been nominated for.
    Last, we will consider 27 resolutions to approve 
prospectuses providing for General Services Administration 
leases. These prospectuses will allow agencies to consolidate 
space, resulting in increased efficiency and fiscal 
responsibility.
    We will now turn to Ranking Member Carper for his opening 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Happy to be here with all of you here to celebrate Joni 
Ernst's birthday.
    Happy birthday, Joni, we are happy for you and for us.
    Good morning, everybody.
    Mr. Chairman, I am happy that our Committee is considering 
three individuals to fill offices at the TVA, the Tennessee 
Valley Authority, 27 prospectus resolutions for the General 
Services Administration.
    As our Nation's largest public power system, TVA provides 
power to more than 9 million households across seven States, 
and supports economic development throughout the Tennessee 
Valley.
    In creating the nine member board of directors for TVA, 
Congress aimed to ensure each board member will support the 
mission of TVA, including being ``a national leader in 
technology, innovation, low cost power, and environmental 
stewardship.'' That is a direct quote.
    I am pleased to support Dr. Brian Noland, who is President 
of East Tennessee State University, to be a board member. I 
believe his considerable experience will serve the TVA well.
    After careful deliberation, I have also decided to support 
Dr. Beth Harwell's nomination to the TVA Board. I initially had 
concerns about her views on climate science; however, during a 
second private conversation last week, Dr. Harwell confirmed 
that she understands that climate change is real, is primarily 
caused by human activity, and that she is committed to 
advancing TVA's leadership in producing low carbon emission 
electricity for the residents of the Tennessee Valley.
    Those comments and affirmations were confirmed by our 
colleague from Tennessee, Lamar Alexander, who apparently was 
involved in encouraging Beth Harwell to seek elective office 
many, many years ago. So with that commitment, double 
commitment from Beth Harwell, I will support her nomination.
    As for our nominee to be Inspector General of the TVA, 
Katherine Crytzer, sadly, I find myself in a position of being 
unable to support her nomination today. Within the past year, 
this Committee has unanimously voted in support of two well 
qualified IG nominees for EPA, and the Nuclear Regulatory 
Commission. Both individuals had served almost 2 decades as 
nonpartisan Federal prosecutors.
    By contrast, Ms. Crytzer has only had 3 years of experience 
as a Federal prosecutor. Ms. Crytzer's most recent experience 
at the Department of Energy has been within the Office of Legal 
Policy, where she has worked in a far more political and 
ideologically driven capacity. This kind of work historically 
is generally not appropriate for an inspector general nominee, 
since what the law requires is someone who is free from 
political bias.
    At no time in our Nation's history has the need for 
independent inspectors general been as profound. Over the past 
several months, our President has unceremoniously removed, 
reassigned, or undermined inspectors general who have dared to 
conduct oversight on the President and his Administration.
    The President fired the intelligence community Inspector 
General for lawfully informing Congress about the existence of 
the Ukraine whistleblower complaint. He replaced the HHS 
Inspector General for issuing a report on health supply 
shortages during the ongoing pandemic. He fired the State 
Department Inspector General for investigating the 
Administration's arms sales to Saudi Arabia and Secretary 
Pompeo's use of Government staff to do personal errands.
    The President also replaced the Defense Department's Acting 
Inspector General to prevent him from serving as Chair of the 
Pandemic Response Oversight Committee.
    It is in this context that we are considering Ms. Crytzer's 
nomination. Unfortunately, in her confirmation process, Ms. 
Crytzer has failed to demonstrate that she will serve 
independently of President Trump.
    During and after her hearing, Ms. Crytzer failed to answer 
simple questions about whether the President's statements and 
actions directed toward existing Inspectors General were 
appropriate. She would not state that it is wrong for a 
President to fire an IG simply because the IG was conducting 
independent oversight.
    She would not state that it is wrong for a President to 
tweet accusations of bias or incompetence at Inspectors General 
who dare to criticize the Administration.
    She would not even state that she would have signed a 
letter that dozens of IGs, including the current acting 
Inspector General at the TVA, all signed. That letter expressed 
their concern that the Justice Department issued a legal 
opinion overruling the intelligence community IG's decision to 
inform Congress of the existence of the credible Ukraine 
whistleblower complaints.
    Finally, when Ms. Crytzer was asked whether she had 
answered our questions for the record on her own, she informed 
us that she submitted her responses to the White House for 
review prior to delivering them to the Committee.
    If an Inspector General nominee cannot act independently in 
responding to questions during a confirmation process, how can 
we trust her or him to act independently once they are in the 
job?
    Agreeing to install a partisan inspector general would be 
unacceptable for a wide range of reasons under any 
circumstance. But I think it is especially unacceptable under 
this Administration.
    I will end with this. Today, the Committee will approve a 
number of GSA prospectus resolutions. Several of these are 
related to the Federal Bureau of Investigation, something that 
a couple of our colleagues on this Committee from Maryland have 
a special interest in. The GSA has still not sent to this 
Committee a prospectus for the FBI headquarters project.
    Mr. Chairman, I would just say in closing, I want to thank 
you, and I want to thank your staff for working to include 
language in the FBI prospectuses that makes clear that the 
facilities we are approving today cannot facilitate the 
relocation of multiple FBI personnel from the DC area FBI 
headquarters until a new prospectus for FBI headquarters is 
approved.
    And with that, Mr. Chairman, I look forward to a brief 
business meeting this morning.
    I thank you, and salute our birthday girl.
    Happy birthday, Joni.
    Senator Barrasso. Now that we have enough members present, 
I would like to call up Presidential Nomination 1716, Catherine 
Crytzer of Tennessee, to be Inspector General of the Tennessee 
Valley Authority. I move to approve and report the nomination 
favorably to the Senate.
    Is there a second?
    Senator Shelby. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. No by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mr. Braun.
    Senator Braun. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Carper. No by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Ms. Gillibrand.
    Senator Carper. No by proxy.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. No by proxy.
    The Clerk. Mr. Merkley.
    Senator Carper. No by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Carper. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    Clerk will report.
    The Clerk. Mr. Chairman, the ayes are 11, the nays are 10.
    Senator Barrasso. The yeas are 11, the nays are 10. We have 
approved Presidential Nomination 1716, which will be reported 
favorably to the Senate.
    I would now like to call up Presidential Nomination 1609, 
Beth Harwell of Tennessee to be a member of the Board of 
Directors of the Tennessee Valley Authority. I move to approve 
and report the nomination favorably to the Senate.
    Is there a second?
    Senator Shelby. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. No by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mr. Braun.
    Senator Braun. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Carper. No by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Ms. Gillibrand.
    Senator Carper. No by proxy.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. Mr. Markey votes no by proxy.
    The Clerk. Mr. Merkley.
    Senator Carper. No by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Carper. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 13, the nays are 8.
    Senator Barrasso. The yeas are 13, the nays are 8. We have 
approved Presidential Nomination 1609, which will be reported 
favorably to the Senate.
    I would now like to call up Presidential Nomination 1610, 
Brian Noland of Tennessee, to be a Member of the Board of 
Directors of the Tennessee Valley Authority, and the 27 General 
Services Administration resolutions en bloc.
    I move to approve and report Presidential Nomination 1610 
favorably to the Senate, and approve 27 GSA resolutions en 
bloc.
    Is there a second?
    Senator Carper. I second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved Presidential Nomination 1610, which 
will be reported favorably to the Senate. We have also approved 
27 GSA Resolutions.
    With that, the voting part of the business meeting is 
finished, but I would be happy to recognize any member of the 
Committee who wishes to make any statement with regard to any 
of the nominations or resolutions that we have just approved.
    Senator Ernst. Mr. Chairman.
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Senator Barrasso, thank you very much for the time you took 
last week to speak with me regarding EPA nominee Doug 
Benevento. I know that we adamantly disagree on the Renewable 
Fuels Standard, but I do sincerely appreciate your 
acknowledging my work on behalf of Iowa's farmers and our 
biofuels industry.
    One of the biggest concerns I am hearing from not only 
Iowa's biofuel producers, but also our farmers, is the constant 
uncertainty brought forth by the EPA on the Renewable Fuels 
Standard. Every time it seems like there will be some certainty 
in the program, the EPA announces something new. And just what 
we have seen in this past week, something new like putting in 
jeopardy the livelihoods of Iowa farmers and producers with 
these new 52 petitions going back years, all the way back to 
2011.
    I spoke with Administrator Wheeler about this very issue 
last week, and I asked him how suddenly in the year 2020, 
refiners could experience a change of circumstances, prompting 
them to apply for hardships back in 2011 and 2012 and 2013. 
This just doesn't add up.
    And frankly, Administrator Wheeler was not able to explain 
to me how he planned to handle these never, ever seen before 
gap waivers.
    Mr. Chairman, folks back in Iowa need some certainty, and 
they are tired of this Administration vowing to support them, 
only for the EPA to yank the rug out from under them with the 
next announcement. For that reason, until the EPA tell us what 
they plan to do with these new petitions, I will not be able to 
support the nomination of Mr. Benevento, or any other EPA 
nominees.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator Ernst.
    Would any other members like to make a statement at this 
time?
    If not, I do have a letter that I do want to introduce into 
the record. It is about Ms. Crytzer, who has received very high 
praise from numerous high ranking officials who served in 
President Obama's Justice Department, two U.S. Attorneys, 
chiefs of the criminal, civil and fraud divisions, 18 Assistant 
U.S. Attorneys, and numerous other officials have written in 
support of this nomination.
    Just to quote: ``Katie's integrity, work ethic, intellect 
and character will make her an outstanding addition to the 
Tennessee Valley Authority and the Inspector General community. 
Throughout her cases, Katie consistently demonstrated that she 
was fair, thoughtful, and objective.''
    I ask unanimous consent to enter this into the record.
    Senator Capito. Mr. Chairman.
    Senator Barrasso. Senator Capito.
    Senator Capito. Sorry. Didn't mean to interrupt. Can I just 
make a quick statement?
    Senator Barrasso. Without objection, those will be entered.
    [The referenced information was not received at time of 
print.]
    Senator Capito. I just wanted to add my congratulations to 
Dr. Brian Noland, who just was voted onto the Board of 
Directors of the TVA. He served in West Virginia in higher 
education with distinction. He did a great job.
    We were sorry to lose him back to Tennessee, and I know he 
will fulfill his obligations with the highest quality standards 
as he did while he was in West Virginia. I just want to say 
congratulations to him and his family.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    So I ask unanimous consent at this time that the staff have 
authority to make technical and conforming changes to each of 
the matters approved today. Without objection, it is done.
    With that, our business meeting is concluded.
    [Whereupon, at 10:05 a.m., the Committee proceeded to other 
business.]
    [Legislation submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
